WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1246

Anna Valentine, Warden Johnny Phillips
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: bin CSetounfeld

Date: 3/11/21

(Type or print) Name | Alan E, Schoenfeld

© mr. O Ms. O Mrs. O Miss
Firm Wilmer Cutler Pickering Hale and Dorr LLP
Address 7 World Trade Center, 250 Greenwich Street
City & State |New York, NY Zip |10007
Phone (212) 937 7294 Email |alan.schoenfeld@wilmerhale.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Courtney J. Hightower, Office of the Kentucky Attorney General, 1024 Capital Center Drive, Frankfort,
ce: |KY 40601-8204; courtney.hightower@ky.gov
